G:.O:"   U.S. GOVERNMENT
         PRINTING OFFICE
         KEEPING AMERICA INFORMED
                                                         260& JUN -6 Hi 4: 15
                                                                                   Bruce R. James
                                                                                      Public Printer



                                                             OFfiCE OF '! I'it
                                                          INSPECTOR GENERAL

         May 31, 2006


         The Honorable Trent Lott
         Chairman
         Joint Committee on Printing
         305 Russell Senate Office Building
         Washington, DC 20510

         Dear Mr. Chairman:

         In accordance with 44 U.S.c. 3903 and the relevant provisions of the Inspector
         General Act of 1978, as amended, I am transmitting to the Congress the
         Semiannual Report of the Office of the Inspector General (OIG) for the U. S.
         Government Printing Office (GPO), covering the 6 month period of October I,
         2005, through March 31, 2006, along with the following information as required
         by law. This letter meets my statutory obligation to provide comments on the
         OIG's report and highlights management actions taken on the OIG's
         recommendations, which may relate to more than one reporting period.

         During this reporting period, I announced my intention to retire from my position
         as Public Printer. Over the past three-plus years, I have instituted various changes
         in how management addresses audit and inspection recommendations. These
         changes have brought about an improved working relationship with the IG,
         resulting in more prompt attention being devoted to closing recommendations and
         improving operations at the same time. I am confident that the improved working
         conditions will continue and that the next Public Printer will be able to work in a
         very positive manner with the IG.

         General Comments

         As provided for by law, this section offers my general comments on the OIG's
         semiannual report and operations.

         I.        Management Challenges. The IG highlighted ten challenges facing
                   GPO's management, all of which have validity and require continuous
                   action. However, ovelTiding these challenges may be new ones
                   envisioned by the next administration in GPO, The major organizational




         732 North Capitol Street, NW   Washington, DC 20401-0001   202·512-1000    bjames@gpo.gov
The Honorable Trent Lot! - Page 2


      transfonnation that has been occurring over the past three years remains
      critical to the future GPO. This effort must continue if the agency is to
      remain a vital force in the 21" century digital information age. The pieces
      have been put into place for the next generation of GPO employees.
      Recruitment and training in the necessary knowledge and skills has begun.
      New systems are also being acquired or developed, the most critical of
      which is our Future Digital System (FDsys), that will preserve and provide
      pennanent public access to Federal Govemment infonnation.

       I do not take exception to any oflhe ten challenges offered by the IG,
       since all of them are vital to GPO's continuous transfonnation. It is
       critical that the next Public Printer incorporates all of these challenges
       and that the current progress being made on each of them continues.
       GPO cannot afford to reverse its course, if it expects to be at the cutting
       edge of new technology and an industry leader in the digital age.

II.    Audits and Inspections. During the reporting period, the OIG issued
       four new audit and inspection reports with 44 recommendations to help
       improve operational perfonnance. Management has concurred with all of
       these recommendations and wi II be addressing each one in the ensuing
       semiannual reporting period.

          o    The first report, GPO Purchase Card Program Management
               Controls, identified a number of areas to strengthen controls over
               access to and use of purchase cards to ensure compliance with all
               applicable laws, regulations, policies and procedures.

          o    The second report, GPO Network Vulnerability Assessment,
               highlighted vulnerability and associated risks that need to be
               closely monitored to help protect GPO's infomlation technology
               resources from unallthorized access and compromise.

          o    The third report, GPO Oracle Program Stakeholder Analysis,
               summarized vulnerabilities and associated risks and examined
               stakeholder issues, concerns, and expectations, as well as program
               integration, implementation, and execution issues.

          IJ   The fourth report, Inspection of GPO's Continuity of Operations
               Plan, identified areas where GPO has not sufficiently addressed
               certain critical elements considered as best practices within the
               federal goverriment regarding Federal Preparedness.
The Honorable Trent Lott - Page 3


       Management intends to take action to address the remaining open
       recommendations, but due to the nature of some, final action will not be
       imminent. The OIG even recognized this fact in its Oracle Program
       report, indicating that program management is currently in the early
       stages of reevaluation and that the estimated completion date of
       September 2007 simply coincided with the planned implementation of the
       entire Oracle Program,

III.    Investigations, The investigative work performed by OIG's staff
        protects against waste, fraud, and abuse. Their efforts once again merit
        positive recognition, as a workers' compensation case was accepted by
        the Department of Justice (DOJ) for civil prosecution, after being
        declined for criminal prosecution, In another case regarding a fraud
        matter, the DOJ accepted it for civil prosecution, after also declining it
        under criminal grounds, Other accomplishments, such as contractor
        debarments and proposed debarments, are noteworthy of the value of the
        OIG's investigative team in fighting waste, fraud, and abuse in the GPO
        and its printing contractors,

       Ajoint effort by the OIG's Inspections and Investigations groups
       detemlined the frivolousness of allegations made in an anonymous letter
       about activities within the operations of the Superintendent of Documents.
        This effort concluded that there were no violations of any law, regulation,
       or GPO instlUction, or would otherwise constitute substantial fraud, waste,
       or abuse on the part of GPO or any of its employees.

Prior Period Outstanding Recommendations

As required by law, this section summarizes management's planned action to
address remaining OIG' s recommendations still outstanding from previous
reporting periods,

       GPO's Travel Program (Report No. 05-04, dated September 30, 2005)

GPO's Chief Financial Officer made considerable progress in addressing the
remaining open recommendations, Of the ten original recommendations, only
two remain open at this time. Once GPO's offices of Customer Services and Chief
Financial Officer establish a notification system that tells when employees are in
travel status, the last two recommendations will be closed, Lacking information
that identifies which employees were authorized to travel for official business, the
Office of Finance and Administration has not been able to properly match the
names of employees on official travel with a monthly report of travel card usage
The Honorable Trent Lott     Page 4


provided by the Bank of America. We anticipate the new system being
operational within the next semiannual reporting period.

       Improving Controls over Contract Modifications in the Central Office
       (Report No. 03-04, dated September 30, 2003)

The OIG's Report on Improving Controls Over Printing Procurement
Department's Contract Modifications at Central Office, recommended that an
automated interface be developed to avoid the duplicative entry of the same
contract modification data into two different systems, one PC-based and one
mainframe-based. This last recommendation requires additional time to
implement. However, in the interim, some system modifications, for items as
paper price adjustments or economic price adjustments for a term contract have
been achieved. We expect the overall requirements to be completed before the
end 0[2006.

       Blank Passport Product Integrity and Security (Report No. AI-0502,
       dated March 31, 2005)

The report on the OIG's Blank Passport Product integrity and Security Review
provided management with ten recommendations to address weaknesses in
various blank passport production business processes, to include missing critical
core competencies, deficient processes, infrastructure issues, and other aspects of
the entire Passport Program. Much action is in process, and will continue, so that
all recommendations can be closed as soon as practical.

Final actions to close out the remaining recommendations are not imminent
because of the extensive time and effort required to make the requisite changes to
current operations. For example, the OIG recommended that GPO should become
ISO 9000-certified as it implements the ISO 9000 best practices for manu-
facturing security and intelligent documents. We acknowledge the importance of
this certification, but it is critical to first subject existing processes to analysis,
evaluation, and measurement prior to embarking on a procedural-based certi-
fication. To this end, GPO's Plant Operations has started to train some employees
in the Six Sigma methodology, which is a measurement-based strategy focusing
on process improvement. This strategy will take considerable time to implement,
and we are only in the early stages.

Management has concurred with the basic tenets within all ofthe OIG's
recommendations. However, we do not anticipate closure of many of these
recommendations until several more semiannual reporting periods. In the interim,
The Honorable Trent Lott - Page 5


we will continue to make progress and keep the OIG apprised on the current
status of actions taken on each recommendation.

       Financial Statement Audit - KPMG Recommendations

KPMG, LLP, subsequent to its 2005 Financial Statement Audit of GPO's
financial statements, issued a management report containing twelve
recommendations about GPO's Information Technology security program.
Findings addressed the following areas: security program planning and
management, access controls, application software development and change
control, system software controls, and service continuity. GPO has continued to
take action to address all of these recommendations. At the end of this reporting
period, action has been completed to close out two recommendations, while
additional action is planned to complete three other recommendations by
September 30, 2006. For the remaining recommendations, appropriate action is
being planned or already underway, but no detinitive time has been set for final
completion.

During this reporting. GPO has adjusted mainframe password configuration to
require the use of a combination of letters, numbers and special characters to
enhance security and accessibility to GPO's computer environment. In addition,
controls have been established to ensure only authorized programs and
modifications are implemented by implementing the System Development Life
Cycle (SDLC) methodology. Checklists have been used and posted on our
Configuration Management's (eM) website as documentation that controls have
been implemented. CM is integral to all phases of a project or system life cycle.
It is unique in its focus on controlling outcomes and makes sure these engines of
efficiency are marshaled together to produce the right product. It also controls
change, making sure that its impact is assessed and that every effort is made to
prevent erosion of product functionality or safety.

Statistical Tables

Statistical tables as required by law are enclosed.
The Honorable Trent Lott - Page 6


If you need additional information with respect to this report, please do not
hesitate to contact Mr. Andrew M. Shennan, Director of Congressional Relations,
on 202-512-1991, or bye-mail at ashennan@gpo.gov.




Public Printer

Enclosures

cc:    The Honorable Vernon Ehlers, Vice Chairman
       The Honorable Thad Cochran
       The Honorable Saxby Chambliss
       The Honorable Mark Dayton
       The Honorable Daniel K. Inouye
       The Honorable John T. Doolittle
       The Honorable Thomas M. Reynolds
       The Honorable Juanita Millender-McDonald
       The Honorable Robert A. Brady
